6/19/2020

Open an Account
Careers

Visa Platinum | CommonWealth One Federal Credit Union

Apply for a Loan

Find an ATM or Branch

Contact Us



Online Banking Login

Routing Number: 256078365

CONNECT

BORROW

MANAGE & SAVE

GROW & LEARN

COVID-19 Update: Click here for information regarding our hours of operation, relief programs or to schedule an appointment.

VISA PLATINUM
OPEN AN ACCOUNT
APPLY FOR A LOAN
Visa Credit Cards
View Visa Credit Card
Rates
Credit Card Pay O
Calculator
How Much Debt Do You
Owe Calculator
Veri ed By Visa®
CardValet and Visa Alerts
Can Help You Keep Your
Information Secure.

Home Equity Loans
Mortgage Loans
Personal Loans
Other Loans
Loan Rates
Loan Calculators
Visa Business Credit
Cards

Visa® Platinum Credit Card
Looking for our lowest credit card interest rate? Apply online in just
minutes for a CommonWealth One Visa Platinum credit card and save
money with a solid, no-frills credit card. Plus, you'll enjoy protection
against fraudulent charges with Visa’s Zero Liability policy1 everywhere
you shop.
Variable rates as low as 7.99% APR* on purchases
No annual fee, cash advance or balance transfer fees
EMV chip enabled for additional layer of protection against fraud
James Madison University custom design available

Convenience Services
Transfer balances to your current purchase rate with no fees in Online Banking or call (866) 8205871
Pay your credit card bill using your CommonWealth One or other bank account
Redeem your points at CURewards.com
Sign up for e-statements

Global Assistance Services
Cardholder Inquiry Service
Emergency Card Replacement/Emergency Cash Disbursement
Lost/Stolen Card Reporting
Disclosures

*APR = Annual Percentage Rate. All credit union rates and terms are based upon the evaluation of applicant(s) credit. Your actual rate

may vary based on your creditworthiness, and will vary with the market based on the Prime Rate.
1Visa’s

Zero Liability Policy covers U.S.-issued cards and does not apply to certain commercial card transactions or any transactions not

processed by Visa. You must notify your financial institution immediately of any unauthorized use. For specific restrictions, limitations and
other details, please contact us.

Auto Loan Rates

Certain terms, conditions, and exclusions apply. In order for coverage to apply you must use your covered Visa card to secure
transactions. Please refer to your Guide to Benefits for further details.

Credit Card Rates

View the Visa Platinum Credit Card Agreement and Disclosure
Visa Rates, Fees, and Cost Information
Visa Signature Guide to Benefits
Visa Platinum Rewards and Platinum Guide to Benefits
Visa Business Platinum Rewards Guide to Benefits

https://www.cofcu.org/borrow/visa-credit-cards/visa-platinum

1/2

6/19/2020

Connect

Online Banking
Bill Pay
Mobile Apps
Mobile MyDeposit
PopMoney
E-Statements
Money Tools
Text Banking and Mobile Web Banking

Visa Platinum | CommonWealth One Federal Credit Union

Borrow

Loan Perks
New and Used Auto Loans
Visa Credit Cards
Home Equity Loans
Mortgage Loans
Personal Loans
Student Loans
Other Loans

Manage & Save

Checking Accounts
Savings Accounts
Money Management Accounts
Share Certi cates
Investment Services
Insurance Programs
Business Services

Grow & Learn

About CommonWealth One
Membership
College Student Services
Youth Programs
Scholarships
Financial and Education Resources
Contact Us
Find a Branch or ATM
Careers

© 2020, CommonWealth One Federal Credit Union. All Rights Reserved.
Privacy Policy | Disclosures | Website Accessibility

https://www.cofcu.org/borrow/visa-credit-cards/visa-platinum

2/2

